 Office of Inspector General
 Audit Report




The Effectiveness and Efficiency
    of EPA’s Air Program


   Report No. E1KAE4-05-0246-8100057




           February 27, 1998
Inspector General Division
 Conducting the Audit:             Northern Audit Division
                                    Chicago, IL

Inspector General Divisions
 Contributing to the Issue Area:   Headquarters Audit Division
                                    Washington, DC

                                   Eastern Audit Division
                                    Boston, MA
                                    New York, NY

                                   Mid-Atlantic Audit Division
                                    Philadelphia, PA

                                   Southern Audit Division
                                    Research Triangle Park, NC

                                   Central Audit Division
                                    Dallas, TX

                                   Western Audit Division
                                    San Francisco, CA

                                   Office of Internal Audits
                                    Washington, DC

                                   Engineering & Science Staff
                                    Washington, DC


Program Offices Involved:          Office of Air and Radiation

                                   Office of Research and Development

                                   Office of Communications,
                                   Education, and Public Affairs
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, DC 20460




                                        February 27, 1998
                                                                                      OFFICE OF
                                                                                THE INSPECTOR GENERAL




MEMORANDUM

SUBJECT:       The Effectiveness and Efficiency of EPA’s Air Program,
               Report No. E1KAE4-05-0246-8100057

FROM:          Michael Simmons /s/
               Deputy Assistant Inspector General
                 for Internal Audits

TO:            Richard D. Wilson
               Acting Assistant Administrator
                 for Air and Radiation

               Henry L. Longest II
               Acting Assistant Administrator
                 for Research and Development

               Loretta M. Ucelli
               Associate Administrator
                 for Communications, Education, and Public Affairs

        Attached is a copy of our report entitled “The Effectiveness and Efficiency of EPA’s Air
Program,” Report No. E1KAE4-05-0246-8100057. This report provides important findings and
recommendations that should significantly improve the efficiency of the Air Program and its
relations with other offices. The final report incorporates the comments each of your offices
provided on position papers we previously issued.

        We appreciate your staffs’ efforts in working with us to develop this report. We
particularly want to thank the Office of Air and Radiation management and staff for their
cooperation and the high level of attention they gave to our work in the Air Program over the past
several years. Without that cooperation and attention, we could not have produced this report.
Action Required

        In accordance with EPA Order 2750, we have designated the Acting Assistant
Administrator for Air and Radiation as the action official for this report. As the action official,
he is required to provide us with a written response within 90 days of the date of this report. The
response should incorporate actions from the Offices of Research and Development, and
Communications, Education, and Public Affairs. The response should also address all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are ongoing and provide a timetable for completion. This information will
assist us in deciding whether to close this report.

        We have no objections to the release of this report to the public. Should your staff have any
questions, please contact Kimberly O’Lone, Audit Manager, at 312-886-3186 or Janice
Miller, Team Leader, at 312-886-3084.

Attachment
                                                   The Effectiveness and Efficiency
                                                            of EPA’s Air Program

               EXECUTIVE SUMMARY

INTRODUCTION   Since 1993, the Office of Inspector General (OIG) has been
               conducting a coordinated body of audit work in the U.S.
               Environmental Protection Agency’s (EPA) Air Program, that led to
               this overall report. We began this effort with a general survey in
               1993 and issued a strategic plan in May 1994. We have issued
               reports on air grants, toxics, enforcement, state implementation
               plans, emission factors, and voluntary programs. This report
               culminates our efforts, pulling together overall issues from OIG and
               U.S. General Accounting Office work.

               The Office of Air and Radiation (OAR) is responsible for carrying
               out EPA’s Air Program. Its mission is to protect and enhance the
               quality of the nation’s air resources and protect human health and
               the environment from airborne pollutants and radiation. OAR
               carries out this mission by implementing the Clean Air Act, as
               amended in 1990 (Act), and the 1993 Climate Change Action Plan.
               OAR also develops programs to reduce risk from indoor air
               pollution and radiation. This report primarily focuses on OAR’s
               activities under the Act.

OBJECTIVE
               The objective of this audit was to determine whether the Air
               Program was working effectively and efficiently to make the
               nation’s air cleaner.

               This report is separated into three parts based on the above
               objective. Part 1 is the introduction, providing background
               information on the Air Program and our audit work. Part 2
               discusses whether the Air Program has been effective. Part 3
               summarizes our conclusions on whether the Air Program has been
               efficient.




                                 i
                                                                 Report No. 8100057
                                                                               The Effectiveness and Efficiency
                                                                                        of EPA’s Air Program



RESULTS IN BRIEF
                                   OAR data show that the Air Program has been effective in cleaning
                                   the air and reducing the potential for depleting the ozone layer.1
                                   We also concluded that, while the Air Program has generally
                                   operated efficiently, it could also be more efficient.

The Air Program Has                Between 1987 and 1996, U.S. emissions of all criteria pollutants
Been Effective in                  declined. Much of this reduction was due to emission controls
Reducing Emissions                 placed on motor vehicles and utilities. OAR estimates that, without
                                   the emission reductions, there would have been more health
                                   problems, such as heart disease and respiratory illnesses. Also,
                                   because of OAR’s Acid Rain Program, the damage to lakes and
                                   forests has been reduced.

                                   Emissions of ozone depleting chemicals have decreased, through
                                   the phase out of the production of certain chemicals, such as
                                   chlorofluorocarbons (CFCs). Without the phase out of CFCs, OAR
                                   predicts that the depletion of the stratospheric ozone layer would
                                   increase, accompanied by an increase in skin cancer.

The Air Program Could              The Air Program has generally operated efficiently. Several prior
Be More Efficient                  audit reports found that OAR had good management practices and
                                   good internal controls over operations reviewed. OAR officials,
                                   however, could increase their program efficiency in several ways.
                                   For instance, Air Program officials could improve their relations
                                   with other parties that OAR needs to carry out its mission. These
                                   parties include the Office of Research and Development (ORD), the
                                   Office of Communications, Education, and Public Affairs
                                   (OCEPA), and outside stakeholders, such as states. OAR officials
                                   could also direct more attention to several ongoing activities to
                                   improve their efficiency. These issues are summarized in the
                                   following paragraphs.




        1
          We did not independently verify information relating to emissions or the health effects of emissions.
Instead, we relied on EPA or other published sources for information in this part of our report.

                                                         ii
                                                                                               Report No. 8100057
                                                               The Effectiveness and Efficiency
                                                                        of EPA’s Air Program

OAR and ORD Needed        One way the Air Program could be more efficient is if its research
to Ensure That Air        and monitoring needs were adequately met. To do this, officials
Research and Monitoring   from OAR and ORD agreed they needed to work together.
Needs Were Met            Although the officials generally worked well together and agreed
                          on most of their activities, some areas of disagreement existed. The
                          disagreements mainly focused on how ORD used its budget for air
                          activities. ORD has not established a consistent process for making
                          Agency-wide research planning and budgeting decisions. Both
                          offices agreed, however, that the fiscal year 1999 process was an
                          improvement over prior years. The two offices also did not have a
                          method for resolving disagreements or sharing decisions with all
                          managers and staff in both offices. Disagreements between the two
                          offices have resulted in impaired working relationships. If the
                          offices do not work well together to resolve disagreements, they
                          may not be making decisions to use their joint resources in the most
                          efficient ways.

OAR and OCEPA             The Air Program could also be more efficient if it worked with
Needed to Work            OCEPA to raise public awareness about air pollution. The public
Together to Raise         is important to the success of OAR programs. Officials from the
Public Awareness          two offices agreed they have not communicated or coordinated
                          sufficiently with each other in the past. As a result, OAR did not
                          always use its resources efficiently. Recently, officials in both
                          offices have taken steps to improve their working relationship.
                          They must continue working together to resolve past differences.

OAR Needed to Give        A third way the Air Program could be more efficient is if OAR
Stakeholders              was more responsive to stakeholders, such as EPA regional offices,
Sufficient Feedback       states, and industry and environmental groups, in implementing the
                          Act. OAR frequently consulted stakeholders for ideas; however,
                          some stakeholder relationships could have benefitted from more
                          feedback from OAR. Stakeholders may have perceived a lack of
                          feedback because (1) they may not have had a clear understanding
                          of how the stakeholder process worked and entered the partnership
                          with high expectations, (2) there was not always a formal
                          mechanism to provide feedback, and (3) the process for working
                          with stakeholders was lengthy. As a result, some stakeholders were
                          reluctant to work with OAR again. OAR cannot efficiently carry
                          out the Act without the cooperation and help of its stakeholders.


                                            iii
                                                                            Report No. 8100057
                                                            The Effectiveness and Efficiency
                                                                     of EPA’s Air Program

  OAR Needed to        Finally, the Air Program needs to devote attention to several
  Give Attention to    ongoing activities to improve efficiency. These activities have
  Several Activities   been discussed in prior audit reports and include: leading the state
                       implementation plan process, developing and improving emission
                       factors, and issuing air toxic standards. OAR has not considered
                       these activities high priorities, compared with other program areas.
                       This resulted in delays and limited funding. Consequently, these
                       activities have operated inefficiently and may not be achieving their
                       desired results. For example, state plans to achieve emission
                       reductions could be delayed. The plans may also be incorrect if the
                       state’s estimates of emissions from major sources are based on
                       inaccurate emission factors. Also, industry deadlines for installing
                       controls over emissions of air toxics will be delayed if OAR is late
                       in issuing standards.

RECOMMENDATIONS
                       We recommend that the Acting Assistant Administrator for Air and
                       Radiation:

                       1.     Along with the Acting Assistant Administrator for Research
                              and Development continue the improvements made in the
                              fiscal year 1999 research planning process.

                       2.     Work with the Associate Administrator for
                              Communications, Education, and Public Affairs to establish
                              procedures to ensure that the offices work up-front with
                              each other when developing projects to raise public
                              awareness of air pollution.

                       3.     Establish a process to ensure that feedback is provided to all
                              stakeholders when OAR has not addressed their concerns,
                              or has not used the input.

                       Additional and expanded recommendations are included at the end
                       of each chapter, beginning in Part 3.




                                         iv
                                                                          Report No. 8100057
                                                         The Effectiveness and Efficiency
                                                                  of EPA’s Air Program

AGENCY COMMENTS
AND OIG EVALUATION The Acting Assistant Administrators for OAR and ORD and the
                   Associate Administrator for OCEPA concurred with our
                   recommendations. They need to provide specific corrective actions
                   and milestone dates for implementing the recommendations. See
                   appendices 1, 2, and 3 for the OAR, ORD, and OCEPA responses.




                                         v
                                                                      Report No. 8100057
                                                                                             The Effectiveness and Efficiency
                                                                                                      of EPA’s Air Program

                                                  Table of Contents
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix

PART 1: INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
      Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
      Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
      Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

PART 2: WAS THE AIR PROGRAM WORKING EFFECTIVELY TO
MAKE THE NATION’S AIR CLEANER? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

THE AIR PROGRAM HAS BEEN EFFECTIVE IN REDUCING EMISSIONS . . . . . . . . . . . . . . . . . . . . . . 8
      Criteria Pollutants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
      Stratospheric Ozone Depletion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
      Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

PART 3: WAS THE AIR PROGRAM WORKING EFFICIENTLY TO
MAKE THE NATION’S AIR CLEANER? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

THE AIR PROGRAM COULD BE MORE EFFICIENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

    CHAPTERS

1         OAR AND ORD NEEDED TO ENSURE THAT AIR RESEARCH AND MONITORING
          NEEDS WERE MET . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     14
                Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     14
                OAR and ORD Generally Worked Well Together . . . . . . . . . . . . . . . . . . . . . . .                             15
                Some Disagreements Existed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               16
                Causes of Disagreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            17
                Disagreements Impaired Relations and Efficiency . . . . . . . . . . . . . . . . . . . . . . .                        17
                Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   18
                Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          18
                Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       19


                                                                   vi
                                                                                                                Report No. 8100057
                                                                                      The Effectiveness and Efficiency
                                                                                               of EPA’s Air Program

2   OAR AND OCEPA NEEDED TO WORK TOGETHER TO
    RAISE PUBLIC AWARENESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          20
           Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     20
           Changing Working Relationship for OAR and OCEPA . . . . . . . . . . . . . . . . . . .                                20
           OAR and OCEPA Did Not Always Work Well Together . . . . . . . . . . . . . . . . .                                    21
           Relationship Impacted Efficiency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               21
           Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23
           Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          23
           Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       23

3   OAR NEEDED TO GIVE STAKEHOLDERS SUFFICIENT FEEDBACK . . . . . . . . . . . . . . . . . .                                     24
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       24
         OAR Asked for Input From Stakeholders . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        26
         OAR Did Not Always Give Feedback . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       26
         Stakeholders Perceived Lack of Feedback . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        27
         Stakeholders Hesitant to Work With OAR . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         28
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     29
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            29
         Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         30

4   OAR NEEDED TO GIVE ATTENTION TO SEVERAL ACTIVITIES . . . . . . . . . . . . . . . . . . . . .                                31
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       31
         SIP Processing Needed to be Improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       33
         Emission Factors Needed to be Developed and Improved . . . . . . . . . . . . . . . . .                                 34
         Timely Air Toxic Standards Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    35
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     37
         Recommendations from Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . .                         38

EXHIBITS

1   EPA OIG AND GAO REPORTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

2   SCOPE, METHODOLOGY, AND PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . 42

3   ISSUES NEEDING FURTHER STUDY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

APPENDICES

1   OFFICE OF AIR AND RADIATION RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . 47


                                                           vii
                                                                                                        Report No. 8100057
                                                                                   The Effectiveness and Efficiency
                                                                                            of EPA’s Air Program

2   OFFICE OF RESEARCH AND DEVELOPMENT RESPONSE . . . . . . . . . . . . . . . . . 49

3   OFFICE OF COMMUNICATIONS, EDUCATION, AND
    PUBLIC AFFAIRS RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

4   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53




                                                         viii
                                                                                                     Report No. 8100057
                                                               The Effectiveness and Efficiency
                                                                        of EPA’s Air Program

                                     Abbreviations
Act                  Clean Air Act, as amended in 1990

CCAP                 Climate Change Action Plan

CFC                  Chlorofluorocarbon

EPA                  Environmental Protection Agency

GAO                  U.S. General Accounting Office

MACT                 Maximum Achievable Control Technology

NOAA                 National Oceanic and Atmospheric Administration

OAR                  Office of Air and Radiation

OCEPA                Office of Communications, Education, and Public Affairs

OIG                  Office of Inspector General

OMB                  Office of Management and Budget

OMS                  Office of Mobile Sources

ORD                  Office of Research and Development

SIP                  State Implementation Plan

Subcommittee Clean Air Act Advisory Committee subcommittee for Ozone, Particulate Matter,
             and Regional Haze Implementation Programs

UV                   Ultraviolet




                                                ix
                                                                               Report No. 8100057
               The Effectiveness and Efficiency
                        of EPA’s Air Program




  PART 1

Introduction




     1
                            Report No. 8100057
                                                  The Effectiveness and Efficiency
                                                           of EPA’s Air Program

                        PART 1
                      Introduction

PURPOSE      Since 1993, the Office of Inspector General (OIG) has been
             conducting a coordinated body of audit work in the U.S.
             Environmental Protection Agency’s (EPA) Air Program. We began
             this effort with a general survey in 1993 and issued a strategic plan
             in May 1994. We have issued reports on air grants, toxics,
             enforcement, state implementation plans, emission factors, and
             voluntary programs. This report culminates our efforts, pulling
             together overall issues from OIG and U.S. General Accounting
             Office (GAO) work. See exhibit 1.

             The objective of this audit was to determine whether the Air
             Program was working effectively and efficiently to make the
             nation’s air cleaner.

BACKGROUND
             The Office of Air and Radiation (OAR) is responsible for carrying
             out EPA’s Air Program. OAR’s mission is to protect and enhance
             the quality of the nation’s air resources and protect human health
             and the environment from airborne pollutants and radiation. OAR
             carries out this mission by implementing the Clean Air Act, as
             amended in 1990 (Act), and the 1993 Climate Change Action Plan.
             OAR also develops and implements programs to reduce risk from
             indoor air pollution and radiation.

             OAR is headquartered in Washington, D.C., and is comprised of
             four main program offices, as shown in figure 1.




                               2
                                                               Report No. 8100057
                                                              The Effectiveness and Efficiency
                                                                       of EPA’s Air Program

                                   Figure 1: Office of Air and Radiation
                                             Organization Chart


                                      Air Quality           Mobile Sources
                                Planning and Standards
                                  (Research Triangle        (Washington, DC
                                      Park, NC)            and Ann Arbor, MI)

                                                              Radiation and
                                Atmospheric Programs
                                                                Indoor Air
                                  (Washington, DC)         (Washington, DC, with
                                                           labs in Las Vegas, NV
                                                           and Montgomery, AL)




OAR Responsibilities   OAR has defined four areas of fundamental responsibility:
                       implementing the Act; carrying out the Climate Change Action Plan
                       (CCAP); reducing risks from radon and other indoor air pollutants;
                       and protecting health and the environment from radiation. Figure 2
                       shows OAR’s fiscal 1996 resources (excluding grants), as allocated
                       among these responsibilities.

                                Figure 2: OAR FY 1996 Resources
                                           (in Millions)
                                     Act
                                    $175.4                            Other
                                                                      $8.4
                                                                       Radiation
                                                                       $13.9
                                                                       Indoor Air
                                                                       $18.1




                                                              CCAP
                                                              $69.3


                       OAR spent the bulk of its resources on responsibilities associated
                       with implementing the Act. For instance, in fiscal 1996, OAR spent
                       about $175 million on its own programs to:

                       C      set health-based national ambient air quality standards for
                              specific pollutants, and help state, local, and tribal
                              governments develop and implement programs to prevent
                              and control those pollutants;

                                          3
                                                                                   Report No. 8100057
                                                                           The Effectiveness and Efficiency
                                                                                    of EPA’s Air Program


                                  C       develop standards to control the release of air toxics, which
                                          are pollutants that are known or suspected to cause cancer
                                          or other serious health effects;

                                  C       set standards to reduce emissions from motor vehicles
                                          through tailpipe standards, evaporative emissions controls,
                                          on-board vapor recovery systems, and cleaner fuels;

                                  C       operate the Acid Rain program, a market-based program to
                                          reduce sulfur dioxide and nitrogen oxide emissions from
                                          utilities; and

                                  C       oversee U.S. efforts to stop stratospheric ozone depletion
                                          by regulating the production, use, and disposal of ozone-
                                          depleting substances, and implementing U.S. responsibilities
                                          under the revised Montreal Protocol.2

                                  Another OAR fundamental responsibility is to implement provisions
                                  of the CCAP. OAR’s role is to develop and implement programs to
                                  stimulate and transform the markets for technologies that reduce
                                  emissions for carbon dioxide, methane, and other compounds that
                                  contribute to global warming. OAR allocated over $69 million
                                  from its fiscal 1996 budget to implement the climate change
                                  programs.

                                  A third area of fundamental responsibility is aimed at reducing the
                                  public health risks from radon and other indoor pollutants. OAR
                                  spent almost $18 million on its indoor environments programs.
                                  These activities are authorized by the Indoor Radon Abatement Act
                                  and the Superfund Amendments and Reauthorization Act.

                                  OAR’s remaining fundamental responsibility is to protect the public
                                  health and the environment from radiation exposure, upon which it
                                  spent about $14 million. Because our work focused on the Air
                                  Program, we did not evaluate any of OAR’s radiation programs.


        2
          The Montreal Protocol is an international agreement on ozone-depleting substances. The agreement was
originally signed in 1987, and was substantially amended in 1990 and 1992.

                                                      4
                                                                                          Report No. 8100057
                                                                          The Effectiveness and Efficiency
                                                                                   of EPA’s Air Program

State Responsibilities           State and local agencies are responsible for carrying out many of
                                 the Act’s provisions. The Act had states take the lead in carrying
                                 out its provisions, because pollution control problems often require
                                 special understanding of local industries, geography, housing
                                 patterns, and other factors. While the law requires OAR to set
                                 limits on how much of a pollutant can be in the air anywhere in the
                                 U.S., it also allows individual states to establish stronger pollution
                                 controls. States are not, however, allowed to have weaker
                                 pollution controls than those set for the whole country.

                                 OAR provides funding to state and local agencies to assist in their
                                 programs. In Section 105 of the Act, OAR is authorized to provide
                                 grants to state and local agencies. These grants are designed to
                                 help the agencies establish and operate air pollution control
                                 programs. In fiscal 1996, OAR allocated just over $163 million to
                                 these grants. OAR also provided $6.6 million to state and local
                                 agencies for indoor environments programs.

SCOPE AND
METHODOLOGY                      We performed our audit in accordance with the U.S. GAO’s
                                 Government Auditing Standards, as issued by the Comptroller
                                 General of the United States (1994 Revision).

                                 As part of this audit, we relied on reports OIG and GAO auditors
                                 prepared. A complete listing of audit reports is included in exhibit
                                 1. The reports we used for this audit were also performed in
                                 accordance with the Government Auditing Standards with the
                                 following exceptions:

                                          OIG Special Reviews3

                                          EPA’s Air State Implementation Plan Program
                                           Consolidated Report
                                          EPA’s Development of its Proposed Open Market
                                           Trading Rule



        3
       These special reviews were more limited in scope than an audit and were conducted in accordance with
OIG Manual Chapter 150.

                                                     5
                                                                                         Report No. 8100057
                                                                             The Effectiveness and Efficiency
                                                                                      of EPA’s Air Program

                                           OIG Surveys4

                                           Region 3 Title V State Operating Permit Program
                                           Acid Rain Allowance Trading Program

                                  The standards the OIG and GAO followed gave us reasonable
                                  assurance of the quality and accuracy of the information. We relied
                                  on the information in the reports to reach conclusions on how the
                                  Air Program was managed and cited examples from the prior
                                  reports in this report.

                                  For our audit objectives, we performed a limited assessment of
                                  internal controls, which included reviewing OAR’s Assurance
                                  Letters for fiscal years 1994, 1995, and 1996. The 1994 report
                                  identified inaccurate data in the state implementation plan tracking
                                  system as an Agency level weakness, but this weakness was shown
                                  as corrected in 1995. We did not detect any material internal
                                  control weaknesses during this audit. However, we continue to
                                  believe that the emission factor program is a material weakness, as
                                  identified in our September 30, 1996 report, Emission Factor
                                  Development, EPA OIG Report No. 6100318. We discuss this
                                  issue further in chapter 4.

                                  See exhibit 2 for scope and methodology details, as well as prior
                                  audit coverage. See exhibit 3 for issues needing further study.




        4
          These surveys did not identify potential issues warranting additional audit work. As such, reports were
not issued to the Air Program. They were performed in accordance with Government Auditing Standards, with the
exception of the reporting requirement.

                                                       6
                                                                                            Report No. 8100057
                       The Effectiveness and Efficiency
                                of EPA’s Air Program




          PART 2

Was the Air Program Working
     Effectively to Make
  the Nation’s Air Cleaner?




             7
                                    Report No. 8100057
                                                                               The Effectiveness and Efficiency
                                                                                        of EPA’s Air Program

                                       PART 2
                          The Air Program Has Been Effective
                                In Reducing Emissions

                                   Office of Air and Radiation (OAR) data show that the Air Program
                                   has been effective in cleaning the air and reducing the potential for
                                   depleting the ozone layer.5 Between 1987 and 1996, U.S.
                                   emissions of all criteria pollutants declined. Much of this reduction
                                   was due to emission controls placed on motor vehicles and utilities.
                                   OAR estimates that, without the emission reductions, there would
                                   have been more health problems, such as heart disease and
                                   respiratory illnesses. Also, because of OAR’s Acid Rain Program,
                                   the damage to lakes and forests has been reduced.

                                   Emissions of ozone depleting chemicals have decreased, through
                                   the phase out of the production of certain chemicals, such as
                                   chlorofluorocarbons (CFCs). Without the phase out of CFCs, OAR
                                   predicts that the depletion of the stratospheric ozone layer would
                                   increase, accompanied by an increase in skin cancer.

CRITERIA
POLLUTANTS

Background                         The Clean Air Act of 1970 required EPA to identify air pollutants
                                   that it anticipated endangered public health. EPA identified six
                                   “criteria” pollutants, for which it has promulgated the National
                                   Ambient Air Quality Standards. These pollutants are: (1) lead, (2)
                                   carbon monoxide, (3) sulfur dioxide, (4) particulate matter, (5)
                                   ground-level ozone, and (6) nitrogen dioxide. The standards
                                   specify acceptable air pollution concentrations for a geographic
                                   area. The Clean Air Act, as amended in 1990 (Act), classified as
                                   non-attainment areas those places that exceeded the standards and
                                   established deadlines for states to achieve them.




        5
          We did not independently verify information relating to emissions or the health effects of emissions.
Instead, we relied on EPA or other published sources for information in this part of our report.

                                                         8
                                                                                               Report No. 8100057
                                                                       The Effectiveness and Efficiency
                                                                                of EPA’s Air Program

Emissions Have                 According to the most current OAR data, the concentrations of all
Gone Down                      six criteria pollutants have gone down, as shown in table 1.6
                                                                Table 1:
                                                           Criteria Pollutants
                                                                            Air quality
                                                                          concentrations
                                                        Pollutant           % decrease
                                                                            1987 - 1996
                                             Lead                                75%
                                             Carbon Monoxide                    37%
                                             Sulfur Dioxide                     37%
                                             Particulate Matter
                                             (1988 - 1996 data)                  25%
                                             Ozone/Volatile                      15%
                                             Organic Compounds
                                             Nitrogen Dioxide                    10%


                               These reductions have occurred in a time of growth. Since the Act
                               was passed in 1970, the U.S. economy, population, and on-road
                               miles driven have all increased. These factors are all traditional
                               causes of air quality problems.

                               OAR also reported that some emissions have been reduced ahead of
                               schedule. Sulfur dioxide emissions, which form one of the
                               components of acid rain, were reduced from the 1980 level of
                               almost 11 million tons to just over 5 million tons in 1995. This was
                               39% below the 1995 allowable emissions level of 8.7 million tons
                               the Act required.




      6
       National Air Quality and Emissions Trends Report, 1996, EPA-454/R-97-013, January 1998.

                                                    9
                                                                                       Report No. 8100057
                                                                           The Effectiveness and Efficiency
                                                                                    of EPA’s Air Program

The Act Has                       In the National Air Quality and Emissions Trends Reports from
Led to the                        1995 and 1996, OAR attributed the reductions of criteria pollutants
Reductions                        to steps taken under the Act. OAR concluded that changes in
                                  gasoline (oxygenated fuels and unleaded and reformulated gasoline)
                                  and other motor vehicle controls resulted in decreases in carbon
                                  monoxide, lead, and ground-level ozone. Utilities using new
                                  control technologies, such as scrubbers, and switching to low sulfur
                                  fuels, affected sulfur dioxide and nitrogen dioxide emissions.
                                  Finally, a decrease in residential wood burning resulted in reduced
                                  particulate matter emissions.

Reductions Help                   According to OAR, the emission reductions achieved may help
People and the                    improve public health and the environment. Exposure to
Environment                       carbon monoxide, particulate matter, lead, and sulfur dioxide can
                                  result in serious health threats to people with heart disease.
                                  Nitrogen dioxide, ground-level ozone, particulate matter, and sulfur
                                  dioxide can also cause or aggravate respiratory illnesses. Exposure
                                  to lead may also result in neurological impairments, such as mental
                                  retardation and behavioral disorders.

                                  A study prepared for the U.S. Geological Survey found that rainfall
                                  in the Eastern half of the country was 10 to 25% less acidic because
                                  of OAR’s Acid Rain Program. As a result, lakes and streams
                                  affected by acid rain will be able to recover, restoring fish and other
                                  life. Forests will also be restored and visibility will improve.

STRATOSPHERIC
OZONE DEPLETION

Background                        Under the Act and the 1987 Montreal Protocol, OAR was required
                                  to write regulations to phase-out the production and sale of CFCs
                                  and several other chemicals.7 These chemicals may be causing the
                                  destruction of the stratospheric ozone layer.




        7
          The Montreal Protocol is an international agreement on ozone-depleting substances. The agreement was
originally signed in 1987, and was substantially amended in 1990 and 1992.

                                                     10
                                                                                          Report No. 8100057
                                                             The Effectiveness and Efficiency
                                                                      of EPA’s Air Program

Emissions Have           Emissions of ozone depleting chemicals have gone down. For
Gone Down                example, scientists from the Department of Commerce’s National
                         Oceanic and Atmospheric Administration (NOAA) reported that, in
                         1995, the total amount of ozone-destroying chemicals in the lower
                         atmosphere declined for the first time.

Production Bans          Production bans under the Act led to decreases in ozone depleting
Have Led to Reductions   chemicals. NOAA scientists concluded that the decline in ozone
                         destroying chemicals in the atmosphere occurred because many
                         nations have limited the production of those chemicals. In July
                         1992, OAR issued its final rule that limited the production and
                         consumption of these chemicals. OAR issued allowances or
                         permits for producing and importing the chemicals. Most major
                         ozone depleting substances were phased out by December 1995. A
                         remaining chemical, methyl bromide, may be produced and
                         consumed through the year 2000, when it will also be phased out.

Reductions Will          Halting the depletion of the stratospheric ozone layer will reduce
Help People and          harmful effects of exposure to the sun, such as skin cancer. Ozone
the Environment          depletion allows more ultraviolet (UV)-b radiation to reach the
                         Earth's surface. According to OAR, increased UV-b radiation
                         causes human skin cancers, cataracts, and impairs human immune
                         systems. Increased UV-b radiation also reduces crop yields and
                         threatens plant and animal life.

CONCLUSION
                         OAR data show that the Air Program has been effective in cleaning
                         the air and reducing the potential for depleting the ozone layer.




                                          11
                                                                          Report No. 8100057
                       The Effectiveness and Efficiency
                                of EPA’s Air Program




          PART 3

Was the Air Program Working
     Efficiently to Make
  the Nation’s Air Cleaner?




             12
                                    Report No. 8100057
                                            The Effectiveness and Efficiency
                                                     of EPA’s Air Program

               PART 3
The Air Program Could Be More Efficient

       The Air Program has generally operated efficiently. Several prior
       audit reports found that the Air Program had good management
       practices and good internal controls over operations reviewed. For
       instance:

       C      The voluntary programs for Radon and ENERGY STAR®
              used good management practices and developed ways to
              estimate their environmental results.

       C      The Green Lights program had adequate program
              operations and internal controls, and it had direct and
              specific plans for addressing program barriers.

       C      EPA regions (1) had adequate procedures in place for
              obtaining, reviewing, and approving state implementation
              plans (SIPs), (2) established a good working relationship
              with Headquarters and states, and (3) worked up-front with
              states to get SIPs submitted on time.

       C      The Office of Air and Radiation’s (OAR) Acid Rain
              Division developed procedures and effectively implemented
              the Acid Rain Permits Program, Allowance Tracking
              System, and Continuous Emissions Monitoring System.

       While the Air Program has been efficient in many ways, it can still
       improve its efficiency. For instance, Air Program officials could
       improve their relations with other parties that OAR needs to carry
       out its mission. These parties include the Office of Research and
       Development, the Office of Communications, Education, and Public
       Affairs, and outside stakeholders, such as states. OAR could also
       be more efficient if it directed more attention to several ongoing
       activities. The following chapters discuss in detail how the Air
       Program could work more efficiently to make the nation’s air
       cleaner.



                        13
                                                         Report No. 8100057
                                                      The Effectiveness and Efficiency
                                                               of EPA’s Air Program

                          PART 3
                       CHAPTER 1
            OAR and ORD Needed to Ensure That
        Air Research and Monitoring Needs Were Met

                 One way the Air Program could be more efficient is if its research
                 and monitoring needs were adequately met. To do this, officials
                 from the Offices of Air and Radiation (OAR) and Research and
                 Development (ORD) agreed they needed to work together.
                 Although the officials generally worked well together and agreed
                 on most of their activities, some areas of disagreement existed. The
                 disagreements mainly focused on how ORD used its budget for air
                 activities. ORD had not established a consistent process for making
                 Agency-wide research planning and budgeting decisions. Both
                 offices agreed, however, that the fiscal year 1999 process was an
                 improvement over prior years. The two offices also did not have a
                 method for resolving disagreements or sharing decisions with all
                 managers and staff in both offices. Disagreements between the two
                 offices have resulted in impaired working relationships. If the
                 offices do not work well together to resolve disagreements, they
                 may not be making decisions to use their joint resources in the most
                 efficient ways.

BACKGROUND
                 OAR has many research and monitoring needs to support its air
                 programs. Air Program officials perform some of this research and
                 monitoring, while outside organizations, such as ORD, other
                 government agencies, or contractors, also perform some. ORD’s
                 activities include a range of functions: technical support, such as
                 monitoring to detect air pollution trends; long-term research to find
                 new ways to prevent and control air pollution; risk assessments for
                 new standards and other pollutants; developing measurement and
                 reference methods; research on the health and ecological effects of
                 air pollutants; and working on Air Program reports, such as the
                 Mercury Report to Congress.




                                   14
                                                                    Report No. 8100057
                                                              The Effectiveness and Efficiency
                                                                       of EPA’s Air Program

                          In fiscal year 1997, ORD allocated just over 20% of its Enacted
                          Operating Plan budget to Air Program activities. ORD used $91.4
                          million of its $439.4 million budget for air-related research and
                          technical support activities. As shown in figure 3, of the $91.4
                          million, about three quarters was for research activities and one
                          quarter was for technical support.

                                    Figure 3: ORD's Air-Related Resources
                                                  FY 1997


                                        Research

                                                   76%




                                                            24%

                                                                  Technical Support




                          The past several years have been a period of change for ORD and
                          the Agency’s research, development, and technical support planning
                          process. In July 1994, an Agency-wide Steering Committee issued
                          a report to the Administrator, Research, Development, and
                          Technical Services at EPA: A New Beginning. To implement the
                          report’s recommendations, in 1996, ORD issued a Strategic Plan
                          after obtaining input from both within and outside the Agency. The
                          plan identified priorities, as well as areas for disinvestment. ORD
                          also established a new planning process based on priorities
                          identified by the program and regional offices and risk-based
                          decision-making.

OAR AND ORD
GENERALLY WORKED OAR and ORD generally worked well together and agreed on most
WELL TOGETHER    of their activities, such as their coordination on the newly revised
                 ambient air standards for ozone and particulate matter. While the
                 two offices have an overall positive working relationship, officials
                 from both offices agreed that their working relationships could

                                           15
                                                                            Report No. 8100057
                                                                             The Effectiveness and Efficiency
                                                                                      of EPA’s Air Program

                                  improve if they better resolved disagreements. They need to build
                                  upon this relationship to address the issues cited in this chapter.

SOME
DISAGREEMENTS                     Some areas of disagreement existed between the two offices. The
EXISTED                           disagreements mainly focused on (1) how ORD used what it
                                  described as its limited resources, and (2) which of the two offices
                                  would perform needed monitoring activities. For instance, ORD
                                  officials decided that, with declining resources, their office could
                                  not continue performing both research activities and all monitoring
                                  activities. Therefore, consistent with its 1996/1997 Strategic Plan,
                                  ORD chose to disinvest in “routine” monitoring activities, while
                                  maintaining the more technical or research-oriented monitoring
                                  networks.8 Air Program officials disagreed with ORD’s decision to
                                  phase out some air monitoring activities.

                                  The two offices also disagreed about which office should perform
                                  the monitoring activities. ORD officials believed that, as the
                                  monitoring activities evolved from being research in nature to more
                                  routine, the Air Program should take over the activities. This
                                  transition would allow ORD’s limited resources to be devoted to
                                  research. However, OAR expected ORD to continue its traditional
                                  role in providing monitoring support and believed much of the
                                  monitoring in question was not “routine.” Air Program officials
                                  stated that they did not have enough time to adequately reallocate
                                  their resources to handle the monitoring when ORD presented them
                                  with a disinvestment plan. OAR also believed that, if monitoring
                                  functions were to be transferred, they should be accompanied by
                                  the associated resources.




        8
          One example of a distinction between routine and research-oriented monitoring involved the Agency’s
ultraviolet-b radiation monitoring network. Although ORD had considered transferring responsibility for the
network to the Air Program, ORD instead decided to maintain the network, because calibration and operation of
the current state-of-the-art monitors were very technical and, as such, did not constitute routine monitoring.

                                                       16
                                                                                            Report No. 8100057
                                                              The Effectiveness and Efficiency
                                                                       of EPA’s Air Program



CAUSES OF
DISAGREEMENTS            The disagreements between the two offices occurred for several
                         reasons. For instance:

                         C      OAR was concerned that ORD had not established a
                                consistent process for making planning and budgeting
                                decisions that provided clear opportunities for input by
                                stakeholder offices, such as OAR. Although an Air
                                Program official said the just-completed planning process
                                for fiscal year 1999 was better than it had been in prior
                                years, he did not think it was well-defined. Other Air
                                Program managers also were not sure how, or even if, they
                                had input to ORD’s decisions.

                         C      ORD expressed concern that OAR had not always set
                                priorities for its research and monitoring needs, or indicated
                                what activities ORD could eliminate if sufficient funding
                                was not available to meet all of the needs. According to
                                ORD, program offices need to convey and prioritize their
                                research, development, and technical support needs, so
                                ORD can put the needs in context with those of other
                                offices.

                         C      Neither office had a mechanism in place for resolving
                                disagreements over the decisions they made. They also did
                                not have a way of sharing decisions affecting air research
                                and monitoring between the two offices and among the
                                managers and staff within each office.

                         C      The two offices had not agreed on the definition of routine
                                monitoring and which office should perform such
                                monitoring.

DISAGREEMENTS
IMPAIRED RELATIONS Disagreements between the two offices impaired working
AND EFFICIENCY     relationships and efficiency. Air Program managers were very
                   frustrated with ORD, because they were not always aware of, or
                   did not understand, ORD’s decisions on air research and

                                          17
                                                                            Report No. 8100057
                                                       The Effectiveness and Efficiency
                                                                of EPA’s Air Program

                  monitoring activities. ORD officials, in turn, were frustrated with
                  Air Program officials, because they requested many research and
                  monitoring projects, without establishing priorities, especially
                  across the different OAR offices.

                  If the two offices do not work well together, they may not be
                  making decisions to use their joint resources in the most efficient
                  ways. For example, because OAR did not clearly identify its top
                  priorities, ORD officials could not always make informed decisions
                  about which Air Program research and monitoring activities were
                  the most important. If ORD chose not to perform some activities
                  OAR considered critical, then Air Program officials would need to
                  find other resources to fund those activities. If the two offices
                  worked together to establish their joint priorities, then they could
                  conduct the most important activities, while less important activities
                  could wait until resources were available.

CONCLUSION
                  If OAR and ORD worked together to resolve their disagreements
                  over how air research and monitoring resources should be spent,
                  and what activities each office should do, they could improve the
                  efficiency of their joint efforts.

RECOMMENDATIONS
                  We recommend that the Acting Assistant Administrator for Air and
                  Radiation and the Acting Assistant Administrator for Research and
                  Development work together to:

                  1-1.   Continue the improvements made in the fiscal year 1999
                         research planning process including making sure that in
                         future processes:

                         a.      ORD provides a consistent process for making
                                 planning and budgeting decisions, which identifies
                                 opportunities for input from the program offices and
                                 regions at key decision points.




                                    18
                                                                     Report No. 8100057
                                                               The Effectiveness and Efficiency
                                                                        of EPA’s Air Program

                                 b.      OAR identifies up-front its cross-office priorities,
                                         and both offices agree on the lower priority activities
                                         that will be eliminated if resources are limited.

                                 c.      each office informs its managers and staff at each
                                         critical stage of the planning and budgeting process.

                                 d.      both offices commit to resolve differences on short-
                                         term or time-critical issues expeditiously, seeking
                                         higher resolution of disagreements only as a last
                                         resort and doing so together.

                          1-2.   Use the Agency’s Environmental Monitoring Management
                                 Council as a forum for addressing multi-office technical
                                 support issues, such as defining routine monitoring and
                                 which offices should perform it.

AGENCY COMMENTS
AND OIG EVALUATION Following our briefing on the results of our fieldwork, OAR and
                   ORD officials concurred that they needed to work together to
                   resolve their disagreements. In a conference call on September 3,
                   1997, officials from the two offices proposed several actions they
                   could take to resolve these concerns. These actions are included in
                   the recommendations.

                          Both Acting Assistant Administrators for OAR and ORD concurred
                          with our findings and recommendations. They need to provide
                          specific corrective actions and milestone dates for implementing the
                          recommendations.




                                           19
                                                                             Report No. 8100057
                                                              The Effectiveness and Efficiency
                                                                       of EPA’s Air Program

                              PART 3
                           CHAPTER 2
                    OAR and OCEPA Needed to
               Work Together to Raise Public Awareness

                         A second way the Air Program could be more efficient is to work
                         with the Office of Communications, Education, and Public Affairs
                         (OCEPA) to raise public awareness about air pollution. The public
                         is important to the success of Office of Air and Radiation (OAR)
                         programs. Officials from the two offices agreed they have not
                         communicated or coordinated sufficiently with each other in the
                         past. As a result, OAR did not always use its resources efficiently.
                         Recently, officials in both offices have taken steps to improve their
                         working relationship. They must continue working together to
                         resolve past differences.

BACKGROUND
                         EPA’s program offices individually develop education and
                         marketing materials, but are to coordinate them through OCEPA.
                         For example, OCEPA reviews, approves, and distributes education
                         and marketing materials that the Air Program develops.

                         Education and awareness are pivotal for OAR’s voluntary
                         programs, such as those to reduce radon exposure, greenhouse
                         gases, and energy consumption. OAR’s Office of Mobile Sources
                         sees public education as a key to convincing people to reduce
                         future automobile emissions and accept other alternatives to
                         driving. The Organization for Economic Cooperation and
                         Development agrees, and recommended in 1996 that the U.S.
                         strengthen education to increase public understanding about the
                         effects of air pollution caused by vehicle use.

CHANGING WORKING
RELATIONSHIP FOR Recently, OAR and OCEPA officials have agreed they needed to
OAR AND OCEPA    improve their working relationship and have begun taking steps to
                 do so. OCEPA has had a change in management, and plans to
                 reorganize soon. Anticipation of the reorganization and other


                                           20
                                                                            Report No. 8100057
                                                     The Effectiveness and Efficiency
                                                              of EPA’s Air Program

                 changes have helped OCEPA officials streamline their efforts,
                 allowing them to concentrate on areas where they will have the
                 most impact. OAR officials reported that OCEPA staff members
                 are now more responsive and helpful. Officials from both offices
                 also meet together frequently. Communication is more open and
                 constructive, fostering a cooperative relationship, instead of an
                 adversarial one.

OAR AND OCEPA
DID NOT ALWAYS   Conflicts between OAR and OCEPA caused tension and resulted
WORK WELL        in staff members not working well together. The two offices had
TOGETHER         not always coordinated on projects to raise public awareness of air
                 pollution. For instance, OCEPA officials said that OAR should
                 involve OCEPA early in educational and outreach projects.
                 Because Air Program officials did not always do this, OCEPA did
                 not review the products until they were completed. OCEPA then
                 questioned the effectiveness or cost of some products. OAR
                 officials thought OCEPA needlessly delayed the projects with
                 extensive questions and did not always add value to the projects.

RELATIONSHIP
IMPACTED         The lack of communication and coordination between OAR and
EFFICIENCY       OCEPA resulted in OAR not always using its resources in the most
                 efficient way. Staff in both offices were frustrated and had
                 difficulty working together. Officials felt they were working
                 against each other, not together to accomplish OAR’s mission.
                 Among other instances, tension was created when:

                 C      OCEPA was not involved with OAR’s development of a
                        refrigerator-style magnet for the ENERGY STAR program.
                        (See figure 4 for a representation of the magnet.) OAR
                        created the magnet for contractors to give to the public,
                        providing information about types of equipment that have
                        met the ENERGY STAR energy efficiency criteria. OCEPA
                        officials were disturbed because (1) they thought OAR
                        should have consulted them about information to include on
                        the magnet, and (2) the magnet was printed without
                        OCEPA’s approval. An OCEPA official stated that the
                        magnet was difficult to read and did not contain useful

                                  21
                                                                   Report No. 8100057
                                   The Effectiveness and Efficiency
                                            of EPA’s Air Program

       information, such as a phone number. OAR officials stated
       that it was not clear that OCEPA was supposed to review
       magnets before they were released.

            Figure 4: OAR Energy Star Magnet




C      The two offices could not arrange to work together on a
       fast-track project with the American Lung Association. The
       American Lung Association and OAR planned to enter a
       cooperative agreement to develop a public service
       announcement about ground-level ozone. To complete the
       announcement in time for ozone season, the project needed
       to proceed quickly. OCEPA officials, however, could not
       accommodate OAR’s request for a fast-track review.
       OCEPA’s workload would not allow it to look at the
       announcement until after the ozone season, in September.
       OAR officials were frustrated that OCEPA officials could
       not make time to review the project, even though it was
       important to them. OAR eventually did not finalize the
       planned cooperative agreement with the American Lung
       Association because the project could not be completed
       timely.

By not working together, the two programs were not operating as
efficiently as possible.




                22
                                                Report No. 8100057
                                                              The Effectiveness and Efficiency
                                                                       of EPA’s Air Program

CONCLUSION
                          Recognizing that they needed to improve their communication and
                          coordination, OAR and OCEPA officials have taken steps to begin
                          improving their working relationship. Working together, OCEPA
                          and OAR can inform the public about air pollution causes, effects,
                          and remedies, in common sense ways.

RECOMMENDATIONS
                          We recommend that the Acting Assistant Administrator for Air and
                          Radiation work with the Associate Administrator for
                          Communications, Education, and Public Affairs to:

                          2-1.   Ensure that product review requirements are followed.

                          2-2.   Establish procedures to ensure that the offices work up-
                                 front with each other when developing projects to raise
                                 public awareness of air pollution.

                          We also recommend that the Associate Administrator for
                          Communications, Education, and Public Affairs:

                          2-3.   Establish concise product review procedures that serve as a
                                 clear and simple guide to the product review process.

AGENCY COMMENTS
AND OIG EVALUATION Following our briefing on the results of our fieldwork, OAR and
                   OCEPA officials agreed they needed to improve their coordination
                   and communication. In August 1997, officials from the two offices
                   committed to work together. Several of their proposed actions are
                   included in the recommendations.

                          Both the Acting Assistant Administrator for OAR and the
                          Associate Administrator for OCEPA concurred with our
                          recommendations. OCEPA provided corrective actions, but needs
                          to provide a milestone date for recommendation 2-2. OAR needs
                          to provide specific corrective actions and milestone dates.




                                           23
                                                                           Report No. 8100057
                                                                 The Effectiveness and Efficiency
                                                                          of EPA’s Air Program

                                  PART 3
                               CHAPTER 3
                           OAR Needed to Give
                      Stakeholders Sufficient Feedback

                            A third way the Air Program could be more efficient is if the Office
                            of Air and Radiation (OAR) was more responsive to stakeholders,
                            such as EPA regional offices, states, industry, and environmental
                            groups, in implementing the Clean Air Act, as amended in 1990
                            (Act). OAR frequently consulted stakeholders for ideas; however,
                            some stakeholder relationships could have benefitted from more
                            feedback from OAR. Stakeholders may have perceived a lack of
                            feedback because (1) they may not have had a clear understanding
                            of how the stakeholder process worked and entered the partnership
                            with high expectations, (2) there was not always a formal
                            mechanism to provide feedback, and (3) the process for working
                            with stakeholders was lengthy. As a result, some stakeholders were
                            reluctant to work with OAR again. OAR cannot efficiently carry
                            out the Act without the cooperation and help of its stakeholders.

BACKGROUND
                            OAR officials recognize that working with stakeholders is critical to
                            the success of their programs. According to OAR, "by working
                            together as stakeholders with common goals, federal, state and
                            local agencies can help each other in attaining and preserving
                            clean air in the United States."9

                            OAR does not have the mandate or the resources to carry out the
                            Act itself. Instead, the Act encouraged OAR to consult
                            stakeholders and made state and local entities, with EPA oversight,
                            largely responsible for implementation. With that responsibility,
                            Federal funds have also gone to state and local entities. For
                            example, as shown in figure 5, of OAR's fiscal year 1996 resources,




    9
     OAR Stakeholders Page, September 1997.

                                              24
                                                                              Report No. 8100057
                                                                                       The Effectiveness and Efficiency
                                                                                                of EPA’s Air Program

                                   37% went to state and local entities as grants to establish and
                                   operate air pollution control programs.10

                                                    Figure 5: OAR Air Grants to State
                                                            and Local Entities
                                                                         OAR Resources
                                                                         Air Grants
                                             500
                                                                                      $448.2        $441.1
                                                     $421.1      $411.6
                                             400

                                             300

                                             200    $175.8       $174.8               $179.6        $163.3

                                             100     42%          42%                  40%           37%

                                               0
                                                     1993         1994                 1995          1996



                                   State and local entities also contribute their own resources toward
                                   cleaning the air. In September 1995, the State and Territorial Air
                                   Pollution Program Administrators/Association of Local Air
                                   Pollution Control Officials reported that Section 105 grant funding
                                   accounted for between 4 and 65% of overall air program funding
                                   for selected state and local entities.

                                               Table 2: OAR Air Grants As a Percentage
                                                    of Overall Air Program Funding
                                              Number Sampled               High            Low       Average
                                                   14 States               65%                 8%       29%
                                                   11 Locals               32%                 4%       19%


                                   OAR and its stakeholders share a common goal, working to make
                                   the nation's air cleaner. Together, OAR and its stakeholders can
                                   achieve more than if they worked independently.


        10
          These grants are referred to as Section 105 grants, based on the Act section in which they are
authorized.

                                                        25
                                                                                                        Report No. 8100057
                                                                The Effectiveness and Efficiency
                                                                         of EPA’s Air Program

OAR ASKED FOR
INPUT FROM                OAR often turned to stakeholders for input. According to OAR
STAKEHOLDERS              officials, one of their most important stakeholders is the Clean Air
                          Act Advisory Committee, which they were required to establish
                          under the Act. The committee provides advice to OAR on policy
                          and technical issues associated with implementation of the Act.
                          Committee members include a variety of people representing:
                          states, local entities, tribes, public interest groups, environmental
                          groups, industry and trade groups, consultants, academia, and
                          Federal Government agencies.

                          OAR also involved stakeholders in a wide variety of projects. For
                          example, the Office of Mobile Sources (OMS) worked with
                          automobile manufacturers on proposed regulations and to develop
                          new technology. OMS had also established partnerships with other
                          governmental agencies, such as the Department of Energy and the
                          Department of Transportation. OAR worked with 37 states
                          through the Ozone Transport and Assessment Group to develop
                          solutions for ozone transport. OAR also solicited input from the
                          regions on planning and priority setting.

OAR DID NOT ALWAYS
GIVE FEEDBACK      Some stakeholders, however, did not believe they received
                   sufficient feedback from OAR. Several stakeholders told us that
                   OAR frequently asked them to provide input, but did not tell them
                   of the results. For example, members of the Clean Air Act
                   Advisory Committee subcommittee for Ozone, Particulate Matter,
                   and Regional Haze Implementation Programs (subcommittee) said
                   EPA did not keep them informed of progress on the implementation
                   plan for the new ozone and particulate matter standards. OAR
                   received subcommittee recommendations on how to implement the
                   new standards and later, without further consultation or input from
                   the subcommittee, released a broad outline describing how it
                   planned to implement the new standards. The subcommittee
                   members were initially disappointed with OAR's outline, and that
                   they were "never briefed on the strategy."




                                            26
                                                                              Report No. 8100057
                                                                       The Effectiveness and Efficiency
                                                                                of EPA’s Air Program

STAKEHOLDERS
PERCEIVED LACK                  Stakeholders may have perceived a lack of feedback from OAR
OF FEEDBACK                     because (1) they may not have had a clear understanding of how the
                                stakeholder process worked and entered the partnership with high
                                expectations, (2) there was not always a formal mechanism to
                                provide feedback, and (3) the process for working with
                                stakeholders was lengthy.

                                First, OAR and its stakeholders may have entered the stakeholder
                                relationship with different expectations, when stakeholders did not
                                clearly understand the process. A U.S. General Accounting Office
                                report found that stakeholders often worked with EPA expecting to
                                reach a consensus.11 However, from OAR officials' perspective,
                                when they ask for input from stakeholders, especially on a proposed
                                rule, consensus could not always be achieved. In one example, the
                                State of Washington and OAR worked together on the Maximum
                                Achievable Control Technology (MACT) standard for aluminum
                                mills. A state official said that she learned OAR's expectation of the
                                state role in the MACT development was different from the state's
                                initial expectation. In this case, state officials were disappointed
                                that OAR did not use all of their input when developing the final
                                standard. While OAR officials considered the state comments, they
                                could not reflect all of the comments in the final rule, because they
                                were not technically feasible. Because of their varied expectations,
                                state staff were frustrated.

                                Second, stakeholders provide input to OAR and some may expect
                                to be kept informed of the status. When a stakeholder provides
                                formal comments to EPA on proposed rules, a mechanism is in
                                place to address the comments, by either including them in the final
                                rule or at least responding to the comments, if changes are not
                                made to the rule. However, there is no such formal mechanism to
                                provide feedback to stakeholders at other stages of the rulemaking
                                process.




        11
       Environmental Protection: Challenges Facing EPA’s Efforts to Reinvent Environmental Regulation,
GAO/RCED-97-155, July 2, 1997.

                                                   27
                                                                                      Report No. 8100057
                                                       The Effectiveness and Efficiency
                                                                of EPA’s Air Program

                   Finally, participating with OAR as a stakeholder is a very lengthy
                   process. If stakeholders want to ensure their comments are
                   included in the final rule, they must submit formal comments
                   throughout the rulemaking process. This process can take up to
                   two years. OAR often asks stakeholders to provide input when
                   developing a proposed rule. For example, OAR consults the Clean
                   Air Act Advisory Committee or the appropriate subcommittee to
                   get stakeholder input prior to developing a proposal. OAR then
                   writes the proposed rule and submits it to the Office of
                   Management and Budget (OMB). OMB can take up to 90 days to
                   review a proposed rule, and sometimes does not take any action
                   during the first 60 days. At this time, OMB usually works only
                   with OAR on the proposed rule. This results in a long waiting
                   period where stakeholders are left out and do not know what is
                   going on with the rule.

STAKEHOLDERS
HESITANT TO WORK   OAR cannot efficiently implement the Act without the
WITH OAR           cooperation and help of its stakeholders. Stakeholder expectations
                   are often higher than what OAR can or intends to meet. These high
                   expectations can create misunderstandings and hurt OAR's
                   stakeholder relationships. Relationships that lack sufficient
                   feedback can leave stakeholders feeling misguided and hesitant to
                   work with OAR again. For example:

                   C      Clean Air Act Advisory Committee subcommittee members
                          were upset at not being briefed on OAR's final
                          implementation plan for the new ozone and particulate
                          matter standards. Several subcommittee members initially
                          thought "EPA must either redefine the group's role in the
                          process or disband it entirely." The members were left
                          wondering why EPA officials asked for input if they did not
                          intend to use it. The members also wanted EPA to refine
                          the group's mission, to better direct resources to areas
                          where EPA would be receptive to suggestions.

                   C      A state air director said he saw his staff's work on the
                          MACT standard for aluminum mills as being of limited
                          value. His staff is currently working on other MACT


                                    28
                                                                     Report No. 8100057
                                                       The Effectiveness and Efficiency
                                                                of EPA’s Air Program

                         standards with OAR, but with a lower amount of effort than
                         was spent on the aluminum mill MACT. He also has a
                         lower expectation of results and of what the state's input
                         can accomplish.

                  Poor stakeholder relationships result in OAR potentially alienating a
                  vital resource. If stakeholders enter a partnership with high
                  expectations, they will likely be disappointed when those
                  expectations are not met. Stakeholders that do not feel their input
                  was addressed in a final regulation are more likely to challenge the
                  regulation through lawsuits.

CONCLUSION
                  OAR officials need to see working with stakeholders as a process
                  that involves much more than just accepting input. OAR and the
                  stakeholders need to have a clear understanding of their relationship
                  up-front. OAR also needs to provide stakeholders with sufficient
                  feedback, especially when unable to incorporate the stakeholders'
                  suggestions. Informal feedback is crucial when there is no formal
                  mechanism available. Assuring solid relationships with stakeholders
                  is vital to efficiently achieving the common goal of cleaning the
                  nation's air.

RECOMMENDATIONS
                  We recommend that the Acting Assistant Administrator for Air and
                  Radiation:

                  3-1.   Develop a process to work with stakeholders up-front to
                         define expectations of the results or outcome of the
                         stakeholder relationship.

                  3-2.   Require OAR officials to explain to stakeholders the
                         process for proposing a regulation, including: OMB
                         involvement, that comments at some stages will not
                         formally be addressed, and that it can be a lengthy process.

                  3-3.   Establish a process to ensure that feedback is provided to all
                         stakeholders when OAR has not addressed their concerns,
                         or has not used the input.

                                   29
                                                                    Report No. 8100057
                                                        The Effectiveness and Efficiency
                                                                 of EPA’s Air Program

AGENCY COMMENTS
AND OIG EVALUATION The Acting Assistant Administrator for OAR concurred with our
                   findings and recommendations. He needs to provide specific
                   corrective actions and milestone dates for implementing the
                   recommendations.




                                        30
                                                                     Report No. 8100057
                                                    The Effectiveness and Efficiency
                                                             of EPA’s Air Program

                       PART 3
                     CHAPTER 4
             OAR Needed to Give Attention
                 to Several Activities

               The fourth way in which the Air Program could be more efficient is
               to devote attention to several ongoing activities. These activities
               have been discussed in prior audit reports and include: leading the
               state implementation plan (SIP) process, developing and improving
               emission factors, and issuing air toxic standards. The Office of Air
               and Radiation (OAR) has not considered these activities high
               priorities, compared with other program areas. This resulted in
               delays and limited funding. Consequently, these activities have
               operated inefficiently and may not be achieving their desired results.
               For example, state plans to achieve emission reductions could be
               delayed. The plans may also be incorrect if the state’s estimates of
               emissions from major sources are based on inaccurate emission
               factors. Also, industry deadlines for installing controls over
               emissions of air toxics will be delayed if OAR is late in issuing
               standards.

BACKGROUND
               SIPs, emission factors, and air toxic standards are vital to achieving
               some of OAR’s fundamental responsibilities, as they have defined
               them. For example, to meet its responsibility of helping state, local,
               and tribal governments develop and implement programs to achieve
               the air quality standards, OAR must assure that approved SIPs are
               in place and emission factors are reliable. To meet its responsibility
               to develop standards to control the release of air toxics, OAR must
               assure that it has a current, practical plan to develop the standards.

SIPs           SIPs are the major mechanisms used to attain air quality standards.
               A SIP is a plan made up of the regulations a state will use to clean
               up polluted air. The Clean Air Act, as amended in 1990, (Act)
               established deadlines for states to submit the plans to EPA for
               review and action. States develop a separate plan for each standard
               or air pollutant of concern, such as: ozone, carbon monoxide, and
               particulate matter.

                                 31
                                                                  Report No. 8100057
                                                                              The Effectiveness and Efficiency
                                                                                       of EPA’s Air Program

Emission Factors                   Emission factors are sometimes used to estimate emissions from
                                   major sources of air pollution. They are primarily used when more
                                   reliable emissions data, such as monitoring data from continuous
                                   emission monitors or stack tests, are not available for a source.
                                   EPA and states use these emission estimates in many parts of their
                                   air pollution control programs, including: (1) preparation of
                                   emission inventories used in air quality models to develop and
                                   evaluate pollution control strategies, (2) permitting and fee
                                   programs, and (3) emission trading programs.

Air Toxics                         Air toxic standards, called Maximum Achievable Control
                                   Technology standards, establish pollution controls for all sources
                                   that emit significant amounts of toxic substances into the air.
                                   Potential sources of air toxics include printers, dry cleaners, and oil
                                   and natural gas producers. The standards require all major sources
                                   to install control equipment or change manufacturing processes to
                                   reduce toxic emissions to levels at least as stringent as those already
                                   achieved by the best-performing facilities in a source category.12
                                   The Act established deadlines for OAR to issue air toxic standards,
                                   requiring OAR to regulate certain percentages of source categories
                                   by November of 1994, 1997, and 2000, as shown in table 3.
                                                         Table 3: Air Toxic Standards
                                                                      Due
                                                            (Shown Cumulatively)
                                                                            Percentage of
                                                             Year Due       Standards Due
                                                              1994                25%
                                                              1997                50%
                                                              2000               100%


SIP PROCESSING
NEEDED TO BE                       While regional offices had several good management practices



        12
          A source category is a group of facilities that generally employ similar manufacturing processes or
produce similar products.

                                                        32
                                                                                              Report No. 8100057
                                                                       The Effectiveness and Efficiency
                                                                                of EPA’s Air Program

IMPROVED                        in the SIP program, OAR could improve parts of the program on a
                                national basis. For instance, OAR and states had not always met
                                Act deadlines for submitting and processing SIPs. Late OAR
                                guidance was the greatest single cause for states submitting their
                                SIPs late.13 State legislatures often have to pass SIPs into law.
                                Because this can be a lengthy process, some states need a long lead
                                time to develop and put their SIPS in place.

                                Another major cause of late SIPs was OAR delays in bringing
                                policy issues to closure. Both our review and an OAR SIP
                                Improvement workgroup found that some issues were left
                                unresolved for a long time. For example, OAR needed to resolve
                                national issues before regions could process some SIPs. In several
                                instances, Region 2 officials delayed processing state SIPs because
                                they identified a national issue that needed to be resolved. They
                                had to wait for a decision from an OAR workgroup before
                                processing the SIPs. The OAR SIP Improvement workgroup cited
                                low priority with management as a root cause of this delay.

                                While states have already submitted many of the original SIPs
                                required under the Act, they will be required to submit new SIPs to
                                meet the ambient air quality standards for ozone and particulate
                                matter that were revised in 1997. As states begin to design
                                programs to achieve these new standards, they will again need
                                OAR’s guidance and prompt policy decisions to develop their SIPs
                                efficiently. The longer it takes to get SIPs processed and in place,
                                the longer it will take to achieve cleaner air.




        13
         EPA’s Air State Implementation Plan Program Consolidated Report, EPA OIG Report No. 6400100,
September 30, 1996.

                                                  33
                                                                                     Report No. 8100057
                                                                                     The Effectiveness and Efficiency
                                                                                              of EPA’s Air Program

EMISSION FACTORS
NEEDED TO BE                   Emission factor development had not met users’ demands for new
DEVELOPED                      and revised emission factors.14 Emission factors were unavailable
AND IMPROVED                   for many sources of air pollution, and those that were available
                               were often unreliable. Moreover, OAR had not met the Act’s
                               requirements to develop emission factors for all sources of ozone
                               precursors. State and industry officials had to use the unreliable
                               factors to estimate emissions. In cases where no factors were
                               available, users were forced to rely on “best engineering
                               judgement,” or an educated guess.

                               OAR cited resource limitations as causing problems with emission
                               factors. Developing or revising emission factors can be expensive
                               and can take several years to complete. For example, one revision
                               cost OAR about $1 million in contract funds and took over five
                               years to complete. An OAR official said that recent budget cuts
                               significantly hindered OAR’s efforts to revise and develop high
                               quality emission factors. Resources for emission factors decreased
                               from $5.8 million in contract dollars and 17.6 full time equivalents
                               (FTEs) in fiscal year 1992 to $1.4 million and 8.8 FTEs in fiscal
                               year 1996. This is shown in figure 6.

                                              Figure 6: Emission Factor Funding
                                                  FY 1992 through FY 1996
                                                           FTEs
                                                           Contract Dollars (in Millions)
                                             17.6
                                        20
                                                           15.4
                                                                        13.9
                                                                                      12.6
                                        15
                                                                                                   8.8
                                        10           5.8
                                                                  3.2          2.9           2.7
                                         5                                                                1.4

                                         0
                                              1992         1993         1994          1995         1996




    14
         Emission Factor Development, EPA OIG Report No. 6100318, September 30, 1996.

                                                     34
                                                                                                          Report No. 8100057
                                                                                The Effectiveness and Efficiency
                                                                                         of EPA’s Air Program

                               Without reliable emission factors, OAR and the states who use
                               them cannot be sure that their: (1) air pollution control strategies
                               target the right industries or products, (2) permitting programs
                               include all required sources and establish proper emission limits,
                               and (3) emission trading programs are effective in reducing air
                               pollution. If these programs are not effective, the nation’s air
                               quality could be adversely affected and people could be subjected to
                               the health hazards associated with excessive exposure to air
                               pollutants.

TIMELY AIR TOXIC
STANDARDS NEEDED               OAR has been behind schedule for promulgating air toxic
                               standards. As shown in figure 7, OAR missed its statutory
                               deadlines for most of the 21 air toxic standards due in 1992 and
                               1994. OAR also missed more than 85% of its 26 statutory
                               deadlines for 1997.
                                                          Figure 7: Air Toxic
                                                          Standard Deadlines
                                                                  Standards Due
                                                                  Deadlines Missed
                                           30
                                                                                        26
                                           25                                                   23

                                           20                       19

                                           15                                   13

                                           10

                                            5
                                                 2          2

                                                     1992                1994                1997




                               Although the Agency was behind schedule for promulgating air
                               toxic standards, in 1995, OAR officials actively sought and put to
                               use many initiatives to speed and improve the process. An Office
                               of Inspector General (OIG) review of various OAR initiatives
                               revealed that many had already proven effective at speeding up the
                               process and others had merit.15 However, to meet the deadlines set

       15
          Development of Maximum Achievable Control Technology Standards, EPA OIG Report No. 6100140,
March 19, 1996.

                                                     35
                                                                                               Report No. 8100057
                                      The Effectiveness and Efficiency
                                               of EPA’s Air Program

by Congress for future standards (58 are due in November 2000),
OAR must continue and even accelerate the issuance of regulations.

U.S. General Accounting Office (GAO) reports have identified
limited funding as a reason the Air Toxics Program has had limited
success. In 1991, OAR officials stated that they planned to have
larger budgets for the program in future years. However, those
plans never materialized. For instance, GAO reported that OAR’s
1994 budget was reduced by $32 million. The Air Toxic Standards
Program faced a significant reduction to its funding request, when it
was reduced by 51 percent. See figure 8.


                 Figure 8: Air Toxic Funding
                           FY 1994

        15             $14.5


        10                              51%
                                              $7.1

         5


         0
                  Requested               Funded


If OAR does not issue the remaining air toxic standards timely, it
will (1) allow industry additional time to operate without using the
best methods available to reduce the air toxics it emits and (2) face
challenges to the standards.

Issuing standards late allows industry more time before it has to
change its methods to reduce emissions. Industry does not have to
change its processes until an air toxic standard becomes effective.
If OAR does not issue an air toxic standard within 18 months of its
statutory due date, states are then required to set emission limits for
sources through the state operating permit. State officials are
supposed to determine, on a case-by-case basis, what limit they
think would apply, had a standard been timely issued. If OAR later
issues a different or more stringent air toxic standard, the new


                  36
                                                     Report No. 8100057
                                                                          The Effectiveness and Efficiency
                                                                                   of EPA’s Air Program

                                   standard does not apply to the permitted source until the next
                                   permit renewal. The Act allows up to eight years for this to occur.

                                   Because of problems with the air toxic standard program, OAR
                                   may be vulnerable to lawsuits. For instance, environmental
                                   organizations may sue OAR to force it to issue standards that are
                                   already late. These groups and the regulated industry may also sue
                                   OAR, because budget problems may impact the quality of the
                                   newer standards. For example, in a December 1994 memorandum,
                                   an OAR official stated that the fiscal year 1995 budget level would
                                   have a significant impact on the Office’s ability to meet its
                                   requirements. He said this was especially true for developing and
                                   issuing the 1997 and 2000 standards.16 In an attempt to meet as
                                   many deadlines as possible, OAR reduced the amount of data
                                   collected and analyzed in developing the standards. However,
                                   OAR officials expressed concern that the quality of the newer air
                                   toxic standards may suffer.

CONCLUSION
                                   Because OAR had not considered its ongoing activities of:

                                   C       leading the SIP process,

                                   C       developing and improving emission factors, and

                                   C       issuing air toxic standards

                                   as high priorities, the activities had not operated as efficiently as
                                   possible, experiencing delays and limited funding. If these activities
                                   continue to be low priorities, it is likely that the problems identified
                                   in this chapter will also continue. SIPS will still be delayed and will
                                   be based on unreliable emission factors. Industry deadlines for
                                   installing air toxic controls will also be delayed. As a result, OAR
                                   and state air programs may not be as efficient or effective as they
                                   could be, resulting in continued air pollution.



        16
             Information on EPA’s Air and Radiation Program’s Budget, 1990-95, GAO/RCED-96-201R, July 1,
1996.

                                                      37
                                                                                        Report No. 8100057
                                                        The Effectiveness and Efficiency
                                                                 of EPA’s Air Program

RECOMMENDATIONS
FROM PRIOR AUDIT   Prior audit reports included recommendations to address the
REPORTS            concerns discussed in this chapter. For instance, in our 1996 report
                   on SIPs, we recommended that the OAR Assistant Administrator:

                   (1)    place priority on implementing the SIP workgroup’s
                          recommendations for developing guidance and bringing
                          policy issues to closure;

                   (2)    place priority on promptly resolving national SIP issues,
                          including those that impact guidance documents; and

                   (3)    establish realistic deadlines for future SIPs that allow EPA
                          time to develop useful guidance.

                   In her April 1997 response to that report, the Assistant
                   Administrator agreed with the recommendations and provided steps
                   for implementing them. She also stated that OAR had emphasized
                   up-front planning for the new ozone and particulate matter SIPs to
                   ensure that the SIP revisions were submitted in a timely manner.
                   She identified several actions that she believed would substantially
                   ease the SIP development effort and result in SIPs being submitted
                   more timely and being fully approvable. These actions, when fully
                   implemented, should address our concerns with late guidance and
                   unresolved national issues. As a result, we are not making
                   additional recommendations in this area.

                   In the prior OIG audit of emission factors, we recommended that
                   OAR declare the program as a material weakness, until adequate
                   resources were obtained to assure satisfactory progress. OAR
                   submitted its emission factor strategy to the EPA Senior Leadership
                   Council and the OIG on November 25, 1997. The strategy
                   provided some actions for correcting the program weaknesses. For
                   instance, beginning in fiscal year 1998, OAR will focus its efforts
                   on upgrading and developing factors for air toxics and the revised
                   particulate matter standard, as well as those for non-road mobile
                   sources. We accepted that these actions, when fully implemented,
                   will address our concerns with emission factor development.
                   However, we still believe that the program should be declared a


                                    38
                                                                     Report No. 8100057
                                     The Effectiveness and Efficiency
                                              of EPA’s Air Program

material weakness, until OAR implements the corrective actions.
We do not have any additional recommendations in this area.

GAO recommended, in 1991, that OAR revise its air toxics strategy
to include all actions, activities, and tasks mandated or reasonably
believed to be necessary to carry out the objectives of the Act. As
of October 1997, this had not been completed. We believe OAR
should still update the air toxics strategy for issuing the remaining
air toxic standards.




                 39
                                                  Report No. 8100057
                                                                  The Effectiveness and Efficiency
                                                                           of EPA’s Air Program

                                                                                       Exhibit 1
                                                                                      Page 1 of 2

                            EPA OIG and GAO Reports

              EPA OIG Reports Included in the Scope of this Report

                          Report Name,                                 Report        Report
                          Issuing Office                                Date         Number
 Survey of EPA Green Lights Program,                                 01/17/95       5700002
 Headquarters Audit Division
 Regional Management of CAA Section 105 Air Grant Program,           09/29/95       5100510
 Southern Audit Division
 Acid Rain Allowance Trading Program,                                12/12/95       (1)
 Eastern Audit Division
 Region 3 Title V State Operating Permit Program,                    02/06/96       (1)
 Mid-Atlantic Audit Division
 Development of Maximum Achievable Control Technology                03/19/96       6100140
 Standards,
 Headquarters Audit Division
 EPA’s Development of its Proposed Open Market Trading Rule,         03/28/96       6400046
 Eastern Audit Division
 Emission Factor Development,                                        09/30/96       6100318
 Southern Audit Division
 EPA’s Air State Implementation Plan Program Consolidated            09/30/96       6400100
 Report,
 Northern Audit Division
 Risk Reduction Through Voluntary Programs,                          03/19/97       7100130
 Northern Audit Division

(1) No report number was assigned, because it was an internal survey report.



                                               40
                                                                                Report No. 8100057
                                                                   The Effectiveness and Efficiency
                                                                            of EPA’s Air Program

                                                                                        Exhibit 1
                                                                                       Page 2 of 2
                  GAO Reports Included in the Scope of this Report

                       Report Name                             Date              Number
Air Pollution: EPA’s Strategy and Resources May Be           06/26/91     GAO/RCED-91-143
Inadequate to Control Air Toxics

Indoor Air Pollution: Federal Efforts Are Not Effectively    10/15/91     GAO/RCED-92-8
Addressing a Growing Problem
Asbestos Removal and Disposal: EPA Needs to Improve          02/25/92     GAO/RCED-92-83
Compliance with its Regulations
Air Pollution: Unresolved Issues May Hamper Success of       09/25/92     GAO/RCED-92-288
EPA’s Proposed Emissions Program
Air Pollution: Actions to Promote Radon Testing              12/24/92     GAO/RCED-93-20
Air Pollution: Difficulties in Implementing a National Air   02/23/93     GAO/RCED-93-59
Permit Program

Air Pollution: EPA’s Progress in Determining the Costs and   02/11/94     GAO/RCED-94-20
Benefits of Clean Air Legislation
Air Pollution: Reductions in EPA’s 1994 Air Quality          11/29/94     GAO/RCED-95-31BR
Program’s Budget
Air Pollution: Allowance Trading Offers an Opportunity to    12/16/94     GAO/RCED-95-30
Reduce Emissions at Less Cost
Air Pollution: EPA Data Gathering Efforts Would Have         08/07/95     GAO/AIMD-95-160
Imposed a Burden on States

Information on EPA’s Air and Radiation Program’s Budget,     07/01/96     GAO/RCED-96-201R
1990-95

Global Warming: Difficulties Assessing Countries’ Progress   09/04/96     GAO/RCED-96-188
Stabilizing Emissions of Greenhouse Gases

Peer Review: EPA’s Implementation Remains Uneven             09/24/96     GAO/RCED-96-236
Environmental Protection: Challenges Facing EPA’s Efforts    07/02/97     GAO/RCED-97-155
to Reinvent Environmental Regulation


                                                  41
                                                                                Report No. 8100057
                                                                                The Effectiveness and Efficiency
                                                                                         of EPA’s Air Program

                                                                                                      Exhibit 2
                                                                                                     Page 1 of 3

                   Scope, Methodology, and Prior Audit Coverage

SCOPE                                We began this work with a general survey of the Air Program in
                                     November 1993. In May 1994, we developed a strategic plan for
                                     the air area. The plan identified ten reviews needed for a
                                     comprehensive program evaluation. The suggested reviews and the
                                     work completed are shown in table 4.

                                             Table 4: Audits Included in the Air Strategic Plan
                                               Planned Audits                        Work Completed
                                     Title V Permits                          Survey without report
                                     Green Programs                           Survey with report
                                     Section 105 Grants                       Audit report
                                     State Implementation Plans               Special review report
                                     Enforcement17                            Audit reports
                                     Acid Rain Emissions Trading              Survey without report
                                     Non-Acid Rain Emissions                  Special review report
                                     Trading
                                     Air Toxics                               Audit report
                                     Indoor Air18                             Audit report
                                     Emission Inventories/Factors             Audit report
                                                                                                       Exhibit 2

        17
           We originally planned to include air enforcement in this report. Because OAR is no longer responsible
for enforcement, it was not included in this report. Instead, the OIG issued a report (7100306) on air enforcement
to the Office of Enforcement and Compliance Assurance on 09/30/97. The OIG also issued reports on validation
of air enforcement data in the states of Pennsylvania, Arkansas, Maryland, and Massachusetts.
        18
             We refocused this audit from indoor air to an audit of Air Voluntary Programs.

                                                         42
                                                                                              Report No. 8100057
                                                  The Effectiveness and Efficiency
                                                           of EPA’s Air Program

                                                                      Page 2 of 3

              After completing the individual assignments, in October 1996, we
              began fieldwork to prepare this report on the Air Program’s
              effectiveness and efficiency. We issued fully-developed position
              papers to OAR, ORD, and OCEPA on November 4, 1997. We
              held meetings with each office in December to obtain comments on
              the position papers. Because we had agreement on the
              recommendations included in the position papers, we did not issue a
              draft report, and instead obtained formal written responses on the
              position papers. Those responses are included as appendices 1, 2,
              and 3.

              Following is the methodology we used to answer our objective for
              this report.

METHODOLOGY
              The first part of our objective was to determine if the Air
              Program was operating effectively to make the nation’s air cleaner.
              To accomplish this objective, we obtained and reviewed EPA,
              international, and other government reports. We did not perform
              direct tests of the data contained in these reports, because it was
              not practical to do so. As a result, we cannot be certain of the
              data’s validity and reliability.

              The second part of our objective was to determine if the Air
              Program was operating efficiently to make the nation’s air cleaner.
              To accomplish this objective, we:

              C      reviewed prior OIG and GAO audit reports, issued since
                     November 1990, to identify common concerns.

              C      discussed these concerns with Air Program management
                     and reviewed relevant documents they provided to
                     determine why the similar concerns existed and whether
                     they were indicators of program-wide problems.




                               43
                                                                Report No. 8100057
                                                    The Effectiveness and Efficiency
                                                             of EPA’s Air Program

                                                                         Exhibit 2
                                                                        Page 3 of 3

              C      interviewed officials from regional and state air programs,
                     and environmental groups, to obtain their opinions on the
                     efficiency of the national Air Program.

              C      interviewed officials from other EPA program offices that
                     OAR works with, including the Offices of Research and
                     Development; Communications, Education, and Public
                     Affairs; and Enforcement and Compliance Assurance. We
                     also reviewed documents they provided, to evaluate how
                     well the offices worked together to achieve the Air
                     Program’s goals.

PRIOR AUDIT
COVERAGE      The OIG and GAO have performed many audits on various
              activities of the Air Program, as shown in exhibit 1. We relied on
              these audit reports for general information in preparing this report.
              We also highlighted four of these audits as containing issues
              needing attention, as discussed in chapter 4. Those reports are:

              1.     EPA’s Air State Implementation Plan Program
                     Consolidated Report, 09/30/96, Report No. 6400100.

              2.     Emission Factor Development, 09/30/96, Report No.
                     6100318.

              3.     Development of Maximum Achievable Control Technology
                     Standards, 03/19/96, Report No. 6100140.

              4.     EPA’s Strategy and Resources May Be Inadequate to
                     Control Air Toxics, 06/26/91, Report No. GAO/RCED-91-
                     143.

              For specific details on the findings and recommendations in these
              reports, see chapter 4.




                                44
                                                                 Report No. 8100057
                                                             The Effectiveness and Efficiency
                                                                      of EPA’s Air Program

                                                                                  Exhibit 3
                                                                                 Page 1 of 2

                       Issues Needing Further Study

                        During our work in the Air Program, we identified several areas
                        that may need future study. A brief summary of those areas
                        follows.

Acid Rain
Emissions Trading       When we performed a survey of this program in 1995, the program
                        was not yet fully operational. We may want to perform additional
                        work on the results of the “True-Opt” reconciliation process, where
                        actual utility emissions are reconciled to the allowances held. This
                        reconciliation began in January 1996. We may also want to review
                        the status of states receiving approval of their acid rain permit
                        programs, which were due in July 1996.

Non-Acid Rain
Emissions Trading       We performed our work on this program in 1996, but EPA had not
                        established its final open market trading rule, so no trades had been
                        completed. Since the time of our review, EPA decided not to issue
                        a rule, but instead issued guidance. We may want to perform
                        additional work once some trades have been completed under this
                        guidance to evaluate the internal controls over the process.

Monitoring Data         This is an area we may want to consider looking at, because it is
                        critical to how EPA evaluates the results of its air pollution
                        programs.

Achieving Attainment    We may want to determine whether non-attainment areas are
                        achieving attainment on schedule. For instance, moderate carbon
                        monoxide and ozone non-attainment areas were supposed to meet
                        the standards by December 1995 and November 1996, respectively.
                        If these areas have not met the standards, we should evaluate
                        whether the states have fully implemented their state
                        implementation plans and whether the implementation has resulted
                        in anticipated reductions in pollution. Furthermore, we should



                                          45
                                                                           Report No. 8100057
                                                      The Effectiveness and Efficiency
                                                               of EPA’s Air Program

                                                                           Exhibit 3
                                                                          Page 2 of 2

                  look at what actions EPA took when areas did not meet the
                  standards timely.

Title V Permits   After states have had time to implement the Title V state operating
                  permit program, we should consider reviewing it. We performed a
                  survey in 1996, but the program was not fully operational at that
                  time. Potential audit issues include (1) EPA and state review of
                  companies that changed from major sources to synthetic minor
                  sources, thus avoiding the need for a Title V permit, and (2) how
                  EPA and states have addressed companies who admitted they had
                  been out of compliance on their permit applications.




                                   46
                                                                    Report No. 8100057
                                                                                           The Effectiveness and Efficiency
                                                                                                    of EPA’s Air Program

                                                                                                                         Appendix 1
                                                                                                                         Page 1 of 2
                  Office of Air and Radiation Response
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                               WASHINGTON, D.C. 20460

                                                    FEB 12 1998
                                                                                                   OFFICE OF
                                                                                               AIR AND RADIATION


MEMORANDUM
SUBJECT:           OAR’s Comments on the Air Theme Report - “The Effectiveness and Efficiency
                   of EPA’s Air Program” OIG Report E1KAE4-05-0246-xxxxxx
FROM:              Richard D. Wilson
                   Acting Assistant Administrator
                      for Air and Radiation (6101)
TO:                Michael D. Simmons
                   Deputy Assistant Inspector General
                     for Internal Audits     (2421)
         Thank you for the opportunity to comment on the Office of the Inspector General’s Air
Theme Report - “The Effectiveness and Efficiency of EPA’s Air Program” (OIG Report
E1KAE4-05-0246-xxxxxx). We have reviewed the OIG’s position papers and concur with the
findings and recommendations.
         I am pleased that OAR and ORD have made great strides in identifying research priorities
with their respective programs in the current budget cycle. We will continue to work with ORD
to strengthen OAR’s presence and results with the research community. Similarly it is
encouraging that OAR and OCEPA’s roles have been clarified and we are proceeding with a
better working relationship between our offices.
         As you can see, even after half a decade with this Air Theme Audit, there remains much
work to be done. So I ask not only for the OIG’s continued cooperation but also for OCEPA and
ORD to work with OAR to develop plans for implementing the report’s recommendations under
the subsequent ninety day review. Please have your offices continue to coordinate any responses
through Pete Cosier (260-7755) of my staff. Thank you. I believe with everyone’s cooperation
we will soon be able to complete this theme audit effort.
cc:     Henry L. Longest II (8101)
        Loretta M. Ucelli (1701)
        Kevin Teichman (8104R)
        Arnold Bloom (8102R)
        Ernest Ragland (2421)
        Anthony Carrollo, Director OIG, Northern Audit Division
            Recycled/Recyclable • Printed with Vegetable Oil Based Inks on 100% Recycled Paper (40% Postconsumer)

                  Note: The original response was signed by Richard D. Wilson.



                                                            47
                                                                                                                    Report No. 8100057
                                                The Effectiveness and Efficiency
                                                         of EPA’s Air Program

                                                                   Appendix 1
                                                                   Page 2 of 2


Kimberly O’Lone, OIG, Northern Audit Division
Janice Miller, OIG, Northern Audit Division
Rob Brenner (6103)
Margo Oge (6401)
John Seitz (MD-10)
Paul Stolpman, (6201J)
Larry Weinstock, (661J)
Jerry Kurtzweg (6102)
Steve Page (6101)
Carl Mazza (6101)
Kevin Teichman (8104R)
Omayra Salgado (6102)
Pete Cosier (6102)
Arnold Bloom (8102R)




                                   48
                                                             Report No. 8100057
                                                                                             The Effectiveness and Efficiency
                                                                                                      of EPA’s Air Program

                                                                                                                           Appendix 2
                                                                                                                           Page 1 of 2
           Office of Research and Development Response
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                 WASHINGTON, D.C. 20460


                                                      FEB -4 1998
                                                                                                  OFFICE OF
                                                                                        RESEARCH AND DEVELOPMENT


MEMORANDUM
SUBJECT:             Response to OIG Position Papers - “The Effectiveness and Efficiency of
                     EPA’s Air Program”
FROM:                Henry L. Longest II
                     Acting Assistant Administrator
                       for Research and Development (8101)
TO:                  Michael Simmons
                     Deputy Assistant Inspector General
                       for Internal Audit (2421)
Purpose
         The purpose of this memorandum is to convey ORD’s response to the Office of
Inspector General's Position Papers - “The Effectiveness and Efficiency of EPA’s Air
Program,” issued to us in final form on February 3, 1998.
Discussion
          We have reviewed the OIG position papers and concur with the findings and
recommendations pertaining to ORD. We are pleased to note that ORD has already
taken certain steps, as part of its FY 2000 planning process, to implement the OIG’s
recommendations. Specifically, last month, ORD met with OAR to discuss OAR’s
strategic priorities for ORD research and technical support. We will continue to
work with OAR to forge our corrective action plan to the OIG’s report
recommendations. We understand that this corrective action plan must be
submitted to the OIG within 90 days from the issuance of the final audit report.
         We appreciate the opportunity to work with the OIG and OAR representatives
in developing and reviewing various iterations of these position papers. We believe
this process was insightful and important. We particularly appreciate the extensive

              Recycled/Recyclable • Printed with Vegetable Oil Based Inks on 100% Recycled Paper (40% Postconsumer)




      Note: The original response was signed by Joseph K . Alexander for Henry L. Longest II.



                                                              49
                                                                                                                      Report No. 8100057
                                                                     The Effectiveness and Efficiency
                                                                              of EPA’s Air Program

                                                                                         Appendix 2
                                                                                         Page 2 of 2


                                               2

and outstanding efforts of the OIG Northern Audit Division Team Leader in working
with us on this important assignment.

         Once again, thank you for your responsiveness to our suggestions on this
effort. Should your staff have any questions or require further information, they
may contact Arnold Bloom at (202) 564-6687.

cc:     Richard Wilson (6101)
        Carl Mazza (6101)
        Pete Cosier (6102)
        Joseph Alexander (8101R)
        Thomas Clark (8101R)
        Kevin Teichman (8104R)
        Peter Durant (8102R)
        Lek Kadeli (8102R)
        Colleen Lentini (8102R)
        Arnold Bloom (8102R)
        Ernest Ragland (2421)
        Janice Miller (OIG/OA/NAD)




                                              50
                                                                                    Report No. 8100057
                                                                    The Effectiveness and Efficiency
                                                                             of EPA’s Air Program

                                                                                            Appendix 3
                                                                                            Page 1 of 2
               Office of Communications, Education,
                    and Public Affairs Response
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                         OFFICE OF
                                                                COMMUNICATIONS, EDUCATION AND
                                  DEC 16 1997                           PUBLIC AFFAIRS


MEMORANDUM
SUBJECT:         OCEPA Comments for the Air Theme Report
FROM:            Loretta M. Ucelli
                 Associate Administrator
TO:              Michael Simmons
                 Deputy Assistant Inspector General
                 For Internal Audits (2421)
      We have reviewed and discussed your position papers from the Air Theme audit.
OCEPA is in agreement with the recommendations that effect our office ( Part 2, Chapter 2).
         We met with your staff and suggested a few minor revisions, which Janice Miller
assures me are being made to the position papers.
        Recommendations and proposed actions:
        2-1. Carry out and work within the planned OCEPA reorganization to ensure that
             product review requirements are followed and discourage OAR officials from
             bypassing the product review requirements.
OCEPA’s proposed reorganization plan is being reviewed in the Office of the Administrator.
We anticipate sign-off before the first of the year and clearance by the Agency by the end of
January. An integral part of the reorganization is the placement of the product review system
within the new Office of Communication. We believe that the program offices will benefit from
a new approach to planning and approving the Agency’s information products. OCEPA also
intends to conduct a two day work shop, in mid-to-late February, with representatives from the
program offices and outside stakeholders to assist the Agency in defining and producing the
types of information products that will be useful to various audiences and the general public.
        2-2. Establish procedures to ensure that the offices work up-front with each other
             when developing projects to raise public awareness of air pollution.
OCEPA intends to update all communications planning procedures to ensure that initial contact

       Note: The original response was signed by Diane H. Esanu for Loretta M. Ucelli.


                                              51
                                                                                     Report No. 8100057
                                                                       The Effectiveness and Efficiency
                                                                                of EPA’s Air Program

                                                                                             Appendix 3
                                                                                             Page 2 of 2


between ourselves and any program office begins early and is a collaborative effort that will lead
to increased public awareness.

         2-3. Establish concise product review procedures that serve as a clear and simple
              guide to the product review process for program offices.

An additional benefit of the February product review workshop will be discussions that will lead
to new guidelines (procedures) that program offices will reference when planning to develop
information products. We anticipate that written guidelines, after program input and review,
should be finalized by May, 1998.

        If you or your staff have other questions or need additional information, please contact
Diane Esanu, Acting Deputy Associate Administrator at (202) 260-2190.




                                                52
                                                                                       Report No. 8100057
                                                               The Effectiveness and Efficiency
                                                                        of EPA’s Air Program

                                                                                  Appendix 4
                                                                                  Page 1 of 1

                                       Distribution

Headquarters

Assistant Administrator for Air and Radiation (6101)
Assistant Administrator for Research and Development (8101R)
Associate Administrator for Communications, Education, and Public Affairs (1701)
Agency Followup Official (2710)
 Attn: Chief Financial Officer, OCFO
Agency Followup Coordinator (2724)
Audit Followup Coordinator, Office of Air and Radiation (6102)
Audit Followup Coordinator, Office of Research and Development (8102R)
Audit Followup Coordinator, Office of Communications, Education, and Public Affairs (1104)
Associate Administrator for Congressional and Legislative Affairs (1301)
Headquarters Library (3401)

Office of Inspector General

Inspector General (2410)

Regional Offices

Regional Administrators
Regional Air Directors
Regional Audit Followup Coordinators
Regional Directors of Public Affairs
Regional Libraries

All State Directors




                                             53
                                                                            Report No. 8100057
